Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401


Richard W. Moore
Inspector General



                                                         December 11, 2008


The Honorable Thomas C. Gilliland
Tennessee Valley Authority Board of Directors



Dear Mr. Gilliland:

AUDIT 2008-12076 – REVIEW OF PRICEWATERHOUSECOOPERS' AUDIT OF THE TENNESSEE
VALLEY AUTHORITY RESTATEMENT OF FISCAL YEARS 2006 AND 2007 FINANCIAL
STATEMENTS



The Tennessee Valley Authority (TVA) contracted with the independent certified public accounting firm
of PricewaterhouseCoopers LLP (PricewaterhouseCoopers) to audit the balance sheets as of
September 30, 2007 and 2006, and the related statements of income, changes in proprietary capital,
and of cash flows for the years then ended. The contract required the audit be done in accordance
with generally accepted government auditing standards.

Under the Inspector General Act, the Inspector General (IG) is responsible for taking appropriate steps to
assure that any work performed by nonfederal auditors, including PricewaterhouseCoopers, complies
with generally accepted government auditing standards. The Chief Financial Officers Act also places
responsibilities on the IG regarding TVA's annual financial statement audit. In keeping with these
statutory responsibilities, the TVA Office of the Inspector General reviewed PricewaterhouseCoopers'
reports and related audit documentation, interviewed their representatives, and performed such other
procedures as we deemed appropriate in the circumstances to provide reasonable assurance the audit
was performed in accordance with generally accepted government auditing standards.

The objective of our review was not intended to enable us to express, and we do not express, an
opinion on the TVA's financial statements or on management's conclusions about the effectiveness of
its system of internal control. PricewaterhouseCoopers is responsible for the auditor's reports dated
December 10, 2007, and November 21, 2008, and the conclusions expressed in the reports. However,
our review disclosed no instances where PricewaterhouseCoopers did not comply, in all material
respects, with generally accepted government auditing standards. Our review was performed in
accordance with generally accepted government auditing standards for attestation engagements.

                                                         Very truly yours,



                                                         Richard W. Moore

RLT:JP
cc: See page 2
The Honorable Thomas C. Gilliland
Page 2
December 11, 2008



cc: Mr. Allan Crawford III
    PricewaterhouseCoopers LLP

    The Honorable Robert M. Duncan
    Tennessee Valley Authority Board of Directors

    The Honorable Howard A. Thrailkill
    Tennessee Valley Authority Board of Directors

    Kimberly S. Greene, WT 7B-K
    Peyton T. Hairston, Jr., WT 7B-K
    John M. Hoskins, WT 4C-K
    Tom D. Kilgore, WT 7B-K
    John M. Thomas III, WT 4B-K
    OIG File No. 2008-12076
